July 14, 2010

TIMOTHY C. HANEY
VICE PRESIDENT, CAPITAL METRO AREA OPERATIONS

SUBJECT: Audit Report – Postal Vehicle Service Transportation
         Routes – Southern Maryland Processing and Distribution Center
         (Report Number NL-AR-10-006)

This report presents the results of our audit of the Southern Maryland Processing and
Distribution Center’s (P&DC) Postal Vehicle Service (PVS) transportation routes
(Project Number 10XG013NL000). Our objectives were to determine whether selected
PVS vehicle operations were effective and economical. The report is the tenth in a
series of reports responding to a request from the U.S. Postal Service’s vice president,
Network Operations, for audit work in this area. See Appendix A for additional
information about this audit.

Postal Service transportation includes both nationwide network transportation between
cities and major facilities as well as delivery transportation between local post offices
and neighborhood delivery and pickup points. Network transportation using Postal
Service vehicles and employees is called PVS. Management typically assigns PVS
vehicles and personnel to Postal Service network facilities, such as network distribution
centers or P&DCs in or near metropolitan areas. PVS operations are normally
conducted within 50 miles of the 154 Postal Service facilities with PVS operations. PVS
drivers travel about 150 million miles every year. Because PVS operations are local,
they are managed at the facility level under guidance from district, area, and
headquarters transportation officials.

Conclusion

The Southern Maryland P&DC could more effectively manage PVS transportation
processes and schedules, thereby reducing driver workhours as well as associated fuel
use and damage claims. Additionally, management could eliminate or consolidate
underutilized trips from highway contract routes (HCRs)1 that serve the Southern
Maryland P&DC. Once this occurs, we estimate the Postal Service could save about
$4.7 million over 10 years. The reduction in PVS and HCR transportation fuel use would
also help achieve fuel consumption goals. We also observed that PVS drivers were not

1
  Although our audit focus was on PVS transportation, we also reviewed HCR transportation as part of overall facility
transportation needs. We identified HCR routes that were underutilized and included the results in this report.
Postal Vehicle Service Transportation Routes –                                       NL-AR-10-006
 Southern Maryland Processing and Distribution Center


consistently restraining mail and equipment for transportation as required nor
adequately securing some parked mail-hauling vehicles.

Excess Workhours and Associated Cost Reductions

Southern Maryland P&DC officials were not effectively managing PVS transportation
processes and schedules as evidenced by unassigned driver time and underutilized
trips. This occurred because management did not always conduct required schedule
and vehicle utilization reviews. We concluded that management could remove 10,153
excess workhours from existing PVS schedules and reduce related fuel costs and
damage claims, thereby saving the Postal Service about $4.1 million over a 10-year
period.2 See Appendix B for our detailed analysis of this topic.

We recommend the vice president, Capital Metro Area Operations:

1. Ensure that Southern Maryland Processing and Distribution Center managers follow
   prescribed fleet management procedures for making postal vehicle service
   schedules effective, including conducting schedule and vehicle utilization reviews.

2. Verify elimination of the 6,904 workhours identified in our audit, and already agreed
   to by management, from the Postal Vehicle Service trip schedules

3. Reassess the remaining 3,249 workhours identified in our audit and eliminate the
   workhours as indicated by the reassessment, or document the reasons for retaining
   the workhours.

Management’s Comments

Management generally agreed with our findings and recommendations 1, 2, and 3.
Management reissued instructions to local managers to follow the Postal Service’s
prescribed fleet management procedures and intends to document plant compliance. In
addition, as of June 30, 2010, management confirmed the elimination of 6,904
workhours from the PVS schedules. Management agreed that the identified trips
associated with the remaining 3,249 workhours are underutilized, but stated that current
scheduling limitations included in the local union Memorandum of Undersanding (MOU)
prevent their ability to capture savings at this time. However, management agreed to
reassess this recommendation and investigate other options, including the scheduling
flexibility options under a national MOU currently being piloted in other sites in the
country. Management stated they would complete this reassessment by July 31, 2010.
See Appendix D for management’s comments in their entirety.




2
    Funds that could be used more efficiently by implementing recommended actions.




                                                          2
Postal Vehicle Service Transportation Routes –                                                                NL-AR-10-006
 Southern Maryland Processing and Distribution Center



Other Matters – Cost Reductions for HCRs

The Southern Maryland P&DC could reduce the number of HCR trips and save more
than $640,000 over the term of existing contracts by eliminating or consolidating
underutilized trips. See Appendix B for our detailed analysis of this topic.

We recommend the vice president, Capital Metro Area Operations:

4. Reassess the eight trips identified in our audit and cancel or modify the trips as
   indicated by the reassessment, or document the reasons for retaining the trips.

Management’s Comments

Management generally agreed with our findings and recommendation. As of June 30,
2010, management eliminated six of the eight trips recommended for elimination.
Although they stated they cannot eliminate the final two trips due to service concerns,
they agreed to evaluate eliminating alternative additional trips. Management stated they
would complete this review by July 31, 2010.

Other Matters – Safety Concerns

We observed mail and equipment being transported on Southern Maryland P&DC PVS
transportation that were not consistently restrained according to established safety
policies.3 Improperly restrained mail and equipment can lead to accidents, property
damage, undue liability, and unwarranted costs for the Postal Service.

We also observed drivers inconsistently using chock blocks4 to secure mail-hauling
vehicles parked at the loading dock. As required by Postal Service policy,5 chock blocks
are used to prevent accidents generally caused by the unanticipated movement of
vehicles away from the dock before completion of loading and unloading mail. Local
officials were not consistently enforcing either of the safety policies referred to above.
See Appendix B for our detailed analysis of this topic.

We recommend the vice president, Capital Metro Area Operations:

5. Ensure that Southern Maryland Processing and Distribution Center management
   issues guidance to drivers enforcing load restraint policies for Postal Vehicle Service
   trips and provide oversight of load restraint processes.

3
  Logistics Order LO200407, dated April 16, 2004, prescribed policies for safe loading and proper restraint during
transportation of mail to facilities. In particular, the order states, “All vehicles transporting containers and pallets must
have the load secured with two restaining devices approximately every ten (10) feet.”
4
  Wedges of sturdy material placed behind a vehicle’s wheels to prevent accidental movement.
5
  Standard Operating Procedure: Receiving and Dispatching Vehicles, November 7, 2007, states, “The driver backs
the vehicle to the door or platform space, sets the brake, shuts off the engine and affixes the chock block(s). If the
chock block(s) is missing, the driver is to notify the expeditor/platform personnel.”




                                                              3
Postal Vehicle Service Transportation Routes –                              NL-AR-10-006
 Southern Maryland Processing and Distribution Center



6. Ensure that Southern Maryland Processing and Distribution Center management
   issues guidance to drivers requiring compliance with Postal Service policies and
   processes on the use of chock blocks by Postal Vehicle Service motor vehicle
   operators.

Management’s Comments

Management agreed with our findings and recommendations 5 and 6. Management has
already issued quidance to drivers in the form of “service talks” and has added signage
to the dock areas. Management will provide follow-up talks to personnel on a regular
basis to ensure compliance with the policies. Finally, the Area Distribution Networks
manager has scheduled a teleconference to discuss these findings and establish
appropriate corrective actions for non-compliance.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive and management’s corrective actions should resolve the issues
identified in the report.

The OIG considers recommendations 1, 2, and 3 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Jody Troxclair, director,
Transportation, or me at 703-248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments




                                                   4
Postal Vehicle Service Transportation Routes –          NL-AR-10-006
 Southern Maryland Processing and Distribution Center


cc: Patrick R. Donahoe
    Steven J. Forte
    Jordan M. Small
    Cynthia F. Mallonee
    Pamela S. Grooman
    Corporate Audit Response Management




                                                   5
Postal Vehicle Service Transportation Routes –                                  NL-AR-10-006
 Southern Maryland Processing and Distribution Center


                             APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Postal Service transportation includes both nationwide network transportation between
cities and major facilities as well as delivery transportation between local post offices
and neighborhood delivery and pickup points. Network transportation using Postal
Service vehicles and employees is called PVS. Management typically assigns PVS
vehicles and personnel to Postal Service network facilities, such as network distribution
centers or P&DCs in or near metropolitan areas. PVS operations are normally
conducted within 50 miles of the 154 Postal Service facilities with PVS operations. PVS
drivers travel about 150 million miles every year. Because PVS operations are local,
they are managed at the facility level under the guidance of district, area, and
headquarters transportation officials.

PVS is capital- and personnel-intensive. Nationwide, PVS capital assets include
approximately 1,900 cargo vans, 1,850 tractors, and 4,100 trailers. Employees service
and repair these vehicles at 319 Postal Service vehicle maintenance facilities (VMFs),
VMF auxiliaries6, and local commercial garages nationwide. PVS currently involves
about 9,000 employees, including 7,919 uniformed drivers, 604 administrative support
personnel, and 812 managers. The American Postal Workers Union represents PVS
drivers and support personnel.

PVS operations typically include:

          Transportation to and from major facilities or local post offices.

          Transportation to and from major commercial business mailers.

          Yard operations, defined as the movement of trailers and equipment in or around
           a facility yard.

OBJECTIVES, SCOPE, AND METHODOLOGY

The vice president, Network Operations, requested that we audit PVS operations
nationwide. Because individual facilities control PVS operations, we localized our audit
approach. This report focuses on PVS operations at the Southern Maryland P&DC in
the Postal Service’s Capital Metro Area. The objectives of our audit were to determine
whether PVS operations were effective and economical.

During our work, we visited the Southern Maryland P&DC, other regional facilities, and
local post offices. We reviewed relevant Postal Service policies and procedures,
interviewed managers and employees, and observed and photographed operations. We
evaluated the type of mail carried and considered on-time service standards. We
6
    An extension of a VMF.




                                                   6
Postal Vehicle Service Transportation Routes –                                 NL-AR-10-006
 Southern Maryland Processing and Distribution Center


examined the cost of PVS operations, including the cost of PVS personnel, fuel, and
damage claims. We identified unscheduled time and trip duplications and analyzed
potential trip consolidations.

Using Postal Service computer-generated data and other records, we analyzed 71
Southern Maryland P&DC driver schedules, identified 119,338 annual workhours
associated with those schedules, and evaluated individual trips and trip load volume.
We conducted the analysis to determine whether management could reduce workhours
and labor costs. We analyzed driver assignments and determined whether drivers made
duplicate or unproductive trips. We also reviewed the fuel reduction initiatives for Postal
Service-owned vehicles as contained in the Postal Service’s National Energy Plan and
determined whether our recommendations impacted the initiatives.

We conducted this performance audit from December 2009 through July 2010 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on June 2, 2010, and included their
comments where appropriate.

We did not audit or comprehensively validate the computer-generated data used in our
analyses; however, we noted several weaknesses that limited our work. For example,
some computer records had missing data and inaccurate load volumes. Although these
limitations constrained our work, we were able to compensate by applying alternate
audit procedures, including observation, physical inspection, and discussion with
appropriate officials. We also applied conservative principles to our workhour and cost-
reduction estimates.

PRIOR AUDIT COVERAGE

At the request of the vice president, Network Operations, the OIG has previously
worked with the Postal Service to reduce PVS costs. As indicated by the table on the
following page, since March 2007 we have issued nine audit reports that identified labor
and other potential savings exceeding $71.7 million. Management agreed with all of our
recommendations. This report used the same methodology and had comparable
findings.




                                                   7
Postal Vehicle Service Transportation Routes –                                        NL-AR-10-006
 Southern Maryland Processing and Distribution Center




                                                                                        Monetary
                                                          Report       Final Report      Impact
               Report Title                               Number           Date       (in millions)
Postal Vehicle Service Transportation
Routes – Memphis Processing and                         NL-AR-07-003    3/30/2007             $7.3
Distribution Center
Postal Vehicle Service Transportation –
                                                        NL-AR-07-006    9/21/2007               4.9
Los Angeles Bulk Mail Center
Postal Vehicle Service Transportation
Routes – Milwaukee Processing and                       NL-AR-07-007    9/27/2007               4.0
Distribution Center
Postal Vehicle Service Transportation
Routes – San Francisco Processing and                   NL-AR-08-003    3/26/2008             10.1
Distribution Center
Postal Vehicle Service Transportation
Routes – Northern Virginia Processing                   NL-AR-08-006    9/25/2008               8.0
and Distribution Center
Postal Vehicle Service Transportation
Routes – Minneapolis Processing and                     NL-AR-09-001    2/13/2009               9.3
Distribution Center
Postal Vehicle Service Transportation
                                                        NL-AR-09-005    7/17/2009               4.3
Routes – Philadelphia Bulk Mail Center
Postal Vehicle Service Transportation
Routes – Philadelphia Processing and                    NL-AR-09-006    7/20/2009               5.4
Distribution Center
Postal Vehicle Service Transportation
Routes – Cardiss Collins Processing and                 NL-AR-10-002   12/28/2009             18.3
Distribution Center
                         Total                                                              $71.77




7
    Total slightly higher due to rounding difference.




                                                          8
Postal Vehicle Service Transportation Routes –                                                       NL-AR-10-006
 Southern Maryland Processing and Distribution Center


                                APPENDIX B: DETAILED ANALYSIS

Excess Workhours and Associated Cost Reductions

Southern Maryland P&DC officials could more effectively manage PVS transportation
processes and schedules to ensure efficiency. We found that PVS schedules inlcuded
the following:

          Unassigned time when drivers were not needed for a specific trip or related
           activity.

          Duplicate trips.

          Underutilized trips management could have consolidated.

This occurred because managers did not always conduct PVS schedule reviews as
required.8 In addition, given the dynamic and ever-changing transportation environment
and the need to maintain the effectiveness and efficiency of PVS operations, the Postal
Service requires management to perform vehicle utilization reviews at least annually to
determine vehicle need.9 According to Southern Maryland P&DC management, they
had not performed this type of review in recent years.

We concluded the Southern Maryland P&DC could reduce PVS workhours by 10,153
and save about $4.1 million over 10 years without negatively affecting service. The
Postal Service would achieve more than 95 percent of the savings through personnel
workhour reductions; however, the Postal Service would also realize fuel cost and
damage claim savings, as depicted in Table 1.

                  Table 1. PVS Potential Savings – Funds Put to Better Use
                            (Personnel, Fuel, and Damage Claims)

                        Fiscal Year (FY) 2011            FY 2012            10-Year Total11
    Cost Category        Total10 (Phased In)          (Annual) Total       (FY 2011 to 2020)      Percentage
    Personnel                          $225,928              $443,125              $3,919,294            95.4%
    Fuel                                  11,235                11,148                108,517              2.6%
    Damage Claims                          8,647                 8,522                  81,047             2.0%

     Total                             $245,810              $462,795              $4,108,859             100%


8
  Handbook PO-701, Fleet Management, March 1991, Chapter 23, requires PVS operations to perform vehicle
utilization reviews at least annually to maintain effectiveness and efficiency.
9
  Handbook PO-701, Chapter 23, Section 233, specifically requires annual completion of Postal Service (PS) Form
4575, Motor Vehicle Service (MVS) Vehicle Survey; PS Form 4572, Tractor Log; and PS Form 4569, Vehicle Use
Plan, to maintain effectiveness and efficiency.
10
   The FY 2011 figure is conservative to allow for phase-in of workhour reductions during the year.
11
   The standard OIG practice for calculations of this type employs a 10-year cash flow methodology, discounted to
present value by applying factors published by Postal Service Headquarters Finance.




                                                         9
Postal Vehicle Service Transportation Routes –                                                          NL-AR-10-006
 Southern Maryland Processing and Distribution Center


Further, the actions would help achieve fuel consumption goals outlined in the Postal
Service’s National Energy Plan by reducing the fuel use of Postal Service-owned
vehicles.

Throughout our audit, we coordinated proposed schedule realignments with local
transportation managers. The managers reviewed each proposal in conjunction with
their own assessment of operational requirements and we discussed any differences.
Management agreed to 6,904 of the 10,153 workhours we identified as unnecessary,
and we believe the remaining 3,249 workhours could produce savings without
jeopardizing on-time performance.

Other Matters – Cost Reductions for HCR

We also determined the Southern Maryland P&DC could improve the effectiveness of
scheduled HCRs and save more than $640,000 over the term of existing HCR contracts
by canceling 8 trips, as depicted in Table 2. The Postal Service could eliminate these
trips without negatively affecting on-time service because trip mail volume was low and
mail could be consolidated on other trips. Throughout our audit, we coordinated
proposed trip changes with Capital Metro Area transportation managers. The managers
reviewed each proposal in conjunction with their own assessment of operational
requirements and we discussed any differences with them. Although management
disagreed with the trips we identified, we continue to believe these eight trips could be
eliminated without jeopardizing on-time performance.

     Table 2. HCR Potential Savings for Cancelled Trips – Funds Put to Better Use
                                 (Contract and Fuel)

                                      Contract         Number         Estimated
                                      Number           of Trips       Savings12
                                        20637                   2        $127,383
                                        20731                   2         138,567
                                        21015                   2         239,685
                                        207L6                   2         141,767

                                        Total                   8      $647,40213




12
   Estimated savings are based on the remaining value of existing contracts and are negotiated between the Postal
Service and their suppliers. The standard OIG methodology for calculating the months remaining in the contract is to
use actual months remaining as of a specified date. But if the months remaining are less than 1 year, the number of
months in the renewal is used.
13
   This amount will be classified as funds put to better use (funds that could be used more efficiently by eliminating
these trips) and consists of $510,346 in contract savings and $137,056 in HCR fuel savings.




                                                          10
Postal Vehicle Service Transportation Routes –                                                   NL-AR-10-006
 Southern Maryland Processing and Distribution Center




Other Matters – Safety Concerns

During our observations of PVS vehicles being loaded and unloaded at the Southern
Maryland P&DC, we found employees were securing up to 55 percent of these vehicles’
loads of rolling stock of mail and equipment with single — instead of the required double
— restraints at the ends of their loads.

Improperly restrained Postal Service mail and equipment can lead to accidents, damage
to property, undue liability, and unwarranted costs for the Postal Service.




 A single restraint was used at the end of a load on         Southern Maryland PVS vehicles not properly
this Southern Maryland P&DC PVS College Park trip            chocked, but unused chock readily available.
          #20740. Picture taken on 2/17/10.                           Picture taken on 3/31/10.



In addition, during our observations of PVS vehicles parked at the Southern Maryland
P&DC dock, we found that over 70 percent of the trailers were not chocked. Postal
Service policies require PVS drivers to approach loading docks by backing vehicles to
the door or platform space, setting the brake, shutting off the engine, and placing the
chock blocks behind the wheels. The chock blocks are intended to prevent accidental
movement of the vehicle and if they are missing, the driver is to notify the expeditor or
platform personnel. 14 Local officials had not been enforcing this policy.




14
  As required by November 7, 2007, Standard Operating Procedures, Receiving and Dispatching Vehicles, issued by
the manager, Surface Operations.




                                                       11
Postal Vehicle Service Transportation Routes –                                                       NL-AR-10-006
 Southern Maryland Processing and Distribution Center



                                 APPENDIX C: MONETARY IMPACT

Excess Workhours and Associated Cost-Reduction Findings. We employed a 10-year
cash flow methodology, discounted to present value by applying the following factors
published by Postal Service Headquarters Finance.

                                     Fiscal Year (FY)
                                       2011 Total15             FY 2012             10-Year Total
              Cost Category            (Phased In)           (Annual) Total       (FY 2011 to 2020)
             Personnel                        $225,928             $443,125              $3,919,294
             Fuel                                11,235               11,148                 108,517
             Damage Claims                         8,647               8,522                  81,047

             Total                            $245,810             $462,795             $4,108,85916


                                          Rates by Type17                 Factor
                                 Discount Rate/Cost of Borrowing           3.5%
                                 Labor Escalation Rate                     1.5%
                                 Fuel Cost Escalation Rate                 2.7%
                                 Tort Cost Claim Escalation Rate           2.0%


Cost Reductions for HCRs Finding. To calculate the months remaining in HCR
contracts, we used actual months as of a specified date. If the months remaining were
less than 1 year, we used the number of months in the renewal contract.

                                                                     Annual
                  Recommended           Contract      Number          Miles          Estimated
                    Reduction           Number        of Trips      Reduced          Savings18
                                         20637                 2         15,517        $127,383
                                         20731                 2         16,798          138,567
                     Disagreed
                                         21015                 2         30,389          239,685
                                         207L6                 2         22,280          141,767

                        Total                                  8         84,984        $647,402




15
   The FY 2011 figure is conservative to allow for phase-in of workhour reductions during the year.
16
   Impact Category: Funds put to better use are funds that could be used more efficiently by implementing
recommended actions.
17
   Rates published 12/23/09.
18
   Estimated savings are based on the remaining value of existing contracts and are negotiated between the Postal
Service and their suppliers.




                                                        12
Postal Vehicle Service Transportation Routes –             NL-AR-10-006
 Southern Maryland Processing and Distribution Center



                       APPENDIX D: MANAGEMENT’S COMMENTS




                                                  13
Postal Vehicle Service Transportation Routes –          NL-AR-10-006
 Southern Maryland Processing and Distribution Center




                                                  14
